                              Closeout for MOO02004

         On January 27, 2000, a Program Officer (P0l)l told us about his concerns that
a PI2 might be trying to increase his odds of getting a n award by submitting the
same proposal to different programs. PO1 said he received a proposal (proposal l)3
that seemed more appropriate for another PO'S (PO2)4 program, and he discussed
the proposal with P02. PO1 learned that PO2 was already reviewing that proposal
(proposal 2).5 PO1 and PO2 discussed how to handle proposal 2; the practice of
P o l ' s division is that it normally asks a PI to withdraw a duplicate proposal.
     The PI told us after he submitted proposal 1,he received a letter from NSF
indicating that his proposal did not conform to NSF guidelines;6 it specifically
mentioned the references (PO2 had noted the references did not have any titles
associated with them). The PI said he corrected the references and resubmittid the
proposal (which became proposal 2). He was very surprised that it went to a
different division.
      We learned from one of NSF's FastLane experts, that FastLane would consider
proposal 2 as a n independently submitted, i.e., new, proposal. We also learned that
FastLane does not have a specific provision for a cover letter where the PI could let
NSF know the "new" proposal is a correction of a n already existing one rather than
a new submission. Given the limitations of FastLane, and the evidence supporting
of the PI'S story, this inquiry is closed and no further action will be taken on this
case.

cc: Integrity, IG




     1 (footnote redacted).
     2 (footnote redacted).
     3 (footnote redacted).
     4 (footnote redacted).
     5 (footnote redacted).
     6 (footnote redacted).




                                      Page 1of 1
